<html>
<title> - FY 2017 BUDGET PRIORITIES FOR EAST ASIA: ENGAGEMENT, INTEGRATION, AND DEMOCRACY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 FY 2017 BUDGET PRIORITIES FOR EAST ASIA: ENGAGEMENT, INTEGRATION, AND 
                               DEMOCRACY

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2016

                               __________

                           Serial No. 114-166

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-850 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Daniel R. Russel, Assistant Secretary, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State.......     5
The Honorable Jonathan Stivers, Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Daniel R. Russel: Prepared statement...............     7
The Honorable Jonathan Stivers: Prepared statement...............    19

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39
Written responses from the Honorable Daniel R. Russel and the 
  Honorable Jonathan Stivers to questions submitted for the 
  record by the Honorable Matt Salmon, a Representative in 
  Congress from the State of Arizona, and chairman, Subcommittee 
  on Asia and the Pacific........................................    40

 
                FY 2017 BUDGET PRIORITIES FOR EAST ASIA:
                      ENGAGEMENT, INTEGRATION, AND
                               DEMOCRACY

                              ----------                              


                        TUESDAY, APRIL 19, 2016

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1 o'clock 
p.m., in room 2200, Rayburn House Office Building, Hon. Matt 
Salmon (chairman of the subcommittee) presiding.
    Mr.  Salmon. The subcommittee will come to order.
    Members will be permitted to submit written statements to 
be included in the official hearing record. Without objection, 
the hearing record will remain open for 5 calendar days to 
allow statements, questions, and extraneous materials for the 
record, subject to the length limitation in the rules.
    Good afternoon. And today, the subcommittee examines the 
administration's Fiscal Year 2017 budget request for the East 
Asia and Pacific region.
    As we continue into what some are calling the Asian 
Century, U.S. annual expenditures for East Asia and Pacific are 
more and more important. Having lived in and traveled 
extensively throughout Asia, I firmly believe this region is 
driving the world's future. Our trade with Asia last year was 
more than $1.4 trillion, and 40 percent of the world's trade 
passes through the South China Sea alone.
    The Obama administration has pushed efforts of its Asia 
rebalance to facilitate U.S. engagement in the region in both 
security and economic advancement, yet even after all the 
administration's rhetoric, this bureau remains the second-
smallest of the State's six regional bureaus. While an increase 
in high-level regional attention is important, the day-to-day 
resources on the ground have got to match the commitment. I 
look forward to the witnesses' justification of this 
discrepancy today.
    Most Members of Congress agree with the administration's 
call for greater engagement with the Asia-Pacific region to 
stimulate closer integration among our allies and partners to 
promote democracy and rule of law. Congress must play an 
important role in this conversation, and it is imperative, 
especially in light of our continuing fiscal challenges, that 
U.S. investment in the region be both effective and efficient.
    Clearly, the Asia-Pacific region faces enormous challenges. 
In a speech given earlier this month, Secretary of Defense Ash 
Carter outlined the five main challenges that the United States 
faces today. Two of them are situated in the Asia-Pacific. The 
continued provocations of North Korea's rogue regime and the 
threat that the South China Sea, one of the world's busiest 
waterways, could be militarized. Secretary Carter went on to 
describe the region as the single-most consequential region of 
the world for America's future.
    On North Korea I commend Chairman Royce's leadership in 
increasing sanctions on this rogue regime. I would be proud to 
join him in that effort, and now I am eager to see the 
implementation of this important new law.
    China's actions in the South China Sea continue to raise 
the risk of conflict while simultaneously jeopardizing the 
international rights, freedoms, and order. As China continues 
its alarming trend of militarizing the South China Sea, the 
United States must be firm in its resolve to support 
international norms.
    While I support the freedom of navigation exercises 
recently conducted by the U.S. Navy, I would like to see even 
more strategic clarity from the administration on the issue of 
the South China Sea to ensure international norms and the rule 
of law are followed.
    Resourcing diplomatic and development responses to such 
challenges can be especially difficult in the region because 
strategic priorities do not always map directly to budget 
priorities. We must work closely with our regional partners, 
who continue calls for our assistance on issues like the South 
China Sea through programs such as the 5-year Southeast Asia 
Maritime Security Initiative, which seeks to foster regional 
stability by improving the maritime capabilities of our 
partners. I hope to hear from our panel more about this 
initiative and others specific to the South China Sea conflict.
    The region faces a plethora of additional challenges from 
the growing threat of radical Islamist terrorist organizations 
and the influence of ISIS to the difficulty of establishing a 
region-wide system of trade rules that are free, fair, and 
uphold high standards. Our trade agreements help strengthen 
institutions and the rule of law while deepening our ties with 
our trading partners and regional allies.
    I continue to support the Trans-Pacific Partnership and 
believe it will ultimately assist in regional economic trade 
activity, heightened regional trade standards, and promote 
increased economic growth for both the U.S. and our trade 
partners.
    I was recently at a symposium put on by the McLean 
Institute in Sedona, Arizona, and James Clapper was there. And 
I remember him saying that TPP is probably worth three aircraft 
carrier or is the equivalent of three aircraft carrier. I am 
interested in hearing the panel's thoughts on utilizing 
development assistance funding to bring non-TPP members closer 
to TPP standards.
    We were also in Indonesia, and they are interested in a 
second round. Their President, in meeting with President Obama 
in January, identified that they would like to be part of a 
second round. Philippines is very, very interested, Taiwan. You 
know, it is going to be interesting to see how it all plays 
out, but I think all of them are looking with great 
anticipation for this to finally be ratified and move on and 
see other opportunities arise in the days and years to come.
    And today, we are going to discuss the many challenges and 
opportunities we face in the region and the administration's 
commitment to the rebalance in the context of the Fiscal Year 
2017 budget request for East Asia and Pacific region. Given the 
heightened challenges in the region, the United States must 
fully commit to increasing integration amongst our allies and 
partners and continuing to promote peace and democracy. Making 
sure we understand these missions from a place of organization, 
efficiency, and effectiveness is equally important, so I am 
really grateful for our witnesses' willingness to join us 
today.
    And I would like to recognize Mr. Sherman for any comments 
he might have.
    Mr.  Sherman. Thank you.
    We can all agree on the importance of the East Asia-Pacific 
region. It is a diverse and dynamic region. We have seen 
significant progress there politically. We have seen democracy 
in Burma or Myanmar move forward. But keep in mind, democracy 
is not touted as a system that necessarily protects minority 
rights. And the Rohingya continue to suffer, whether it is from 
the military or even from some of the democratic leaders in 
Myanmar/Burma.
    The economic progress has been more than significant. World 
Bank says extreme poverty in the region has dropped from 29 
percent in 2002 to 4 percent in 2014.
    While we all agree that the region is important, I think we 
are going down the wrong path because we are being war hawks 
about some islets that remain uninhabited to this day. That is 
how useless they are. And we are incredibly doves when it comes 
to jobs for the American people. You would think that the 
American Government might have lost touch with the citizens it 
claims to represent, which I think is obvious to anyone looking 
at our current political system.
    Looking first at these maritime disputes, we have to be 
careful about how we deploy our limited resources. Pivot to 
Asia should mean we send a trade delegation to Tokyo to say we 
have got to deal with this trade deficit rather than sending 
aircraft carriers to defend islets for Japan that they are 
unwilling to defend at their own cost.
    Let's look at these islets. There is no oil. If there was 
any oil, it is not our oil. And the countries who say that it 
would be their oil are unwilling to increase their defense 
budgets but are banking on their ability to redirect our 
defense budget because, while our defense budget may not 
increase, our allocation of it to protect their islets, which 
have their oil but there is no oil is their best investment.
    And Japan, for example, continues to have a 1 percent GDP 
ceiling on what they spend for their own defense.
    The chairman brings up the trade agreement, as our 
witnesses do in their opening statement. This is a trade 
agreement so manifestly against American interests that 
everyone running for President swears they are against it even 
those who may think otherwise. The American people will see 
this agreement become law only through chicanery and trickery 
like ratification during a lame-duck session.
    I hope that we can put enough light on this so we not only 
ask candidates for President where do they stand on it, but we 
get a clear statement from every candidate for President will 
they withdraw from it if chicanery is used to ratify it during 
the month of December of this year.
    This agreement is so terrible for American working families 
that it is being sold as good national security policy. Suffer 
for your country; your country needs you. This is terrible 
national security policy.
    First, it is a Trojan horse for China to bring its imports 
into the United States, goods that are admitted to be 60 
percent made in China. In reality, 80 or 90 percent made in 
China get fast-tracked into the United States with no 
supervision and no tariff, a one-way free trade agreement for 
China.
    Second, this deal puts the U.S. Government's stamp of 
approval on the idea that trade agreements don't control 
currency manipulation. So the idea that we should be so proud 
that we wrote the rules, no, these are Wall Street's rules that 
have mutilated the American middle class. We shouldn't be proud 
for passing them, and oh, by the way, the one rule China wanted 
we wrote for them even though they didn't even have to show up 
for the negotiations. And the key thing, the most important 
part of this agreement is the part that is not in it, nothing 
on currency manipulation.
    As to North Korea, we clearly have a problem. What worries 
me most is that North Korea will sell fissile material or a 
nuclear weapon. In 2007, Israel destroyed a nuclear facility, a 
nuclear bomb facility in Syria. What is less well-known is that 
it was all North Korean equipment and technology.
    North Korea was only willing to sell technology and 
equipment in 2007 because they didn't have very mean weapons 
and they needed nuclear weapons in their own belief to defend 
themselves from us. They now have 12 nuclear weapons. They will 
be developing three a year or at least enough fissile material 
for three a year. I don't know whether the next one goes on 
eBay, but I do know that the amount North Korea would demand 
would exceed the resources of ISIS or any other terrorist non-
state actor, but Iran and other state actors would have enough 
money to really interest the North Koreans.
    Finally, as Washington warned us, we have to avoid the 
tendency of many countries to go looking for dragons to slay--
funny that he used the term dragon--looking for enemies we 
don't need.
    China has domestic political problems, so they fan 
nationalism over islets. We do the same thing perhaps for our 
own political reasons. We were told that these islets, for 
example, sit astride trade routes involving hundreds of 
billions of dollars of trade. Yes, it is all trade in and out 
of Chinese ports, and if China had military control of these 
islands, they could blockade their own ports.
    So we exaggerate the importance of these islets in order to 
meet domestic political needs. What the Pentagon needs 
politically most is a worthy adversary. They don't like 
focusing their attention on non-uniformed, asymmetrical 
opponents. China offers the only hope of a worthy uniformed 
opponent. We don't need another opponent. We need to calm down 
and realize these islets are islets that remain uninhabited 
even though they are off the coast of the most populated 
continent for a reason.
    And I realize that our hearing today is about the State 
Department and a USAID budget, but the Pentagon budget follows 
foreign policy or at least it should, and that is the big 
budget we have got to worry about.
    I yield back.
    Mr.  Salmon. We are grateful to be joined today by 
Assistant Secretary Daniel Russel of the Department of the 
State's Bureau of East Asia and Pacific Affairs and Assistant 
Administrator Jonathan Stivers of the U.S. Agency for 
International Development Bureau for Asia. And we are thankful 
to these witnesses for sharing their time with us today.
    And I am going to start with you, Mr. Russel, and then Mr. 
Stivers when he has concluded. Thank you.

    STATEMENT OF THE HONORABLE DANIEL R. RUSSEL, ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr.  Russel. Chairman Salmon, Ranking Member Sherman, 
members of the subcommittee, thanks very much for your 
leadership in supporting strong U.S. relations with the East 
Asia and Pacific region. Thank you also for the opportunity to 
testify today about our progress in the rebalance and the 
relevance of the President's 2017 budget request.
    And, Mr. Chairman, if I may in particular thank you for 
your tremendous leadership of this subcommittee and your strong 
support for our engagement in the Asia-Pacific. You will be 
sorely missed in Fiscal Year 2017 when this budget is realized.
    This is also the last budget for President Obama, and so I 
would like to start with just a quick recap of what we think we 
have accomplished with your support over the last 7 years and 
the foundation that we think that we can lay through this 
budget for the next administration.
    First, since security starts with friends, we modernized 
our longstanding treaty alliances with Japan, South Korea, 
Australia, and the Philippines, and we forged new security 
partnerships at the same time that we developed existing ones 
with partners like Singapore and New Zealand. This makes us 
much more effective in addressing both conventional security 
threats but also other threats such as countering violent 
extremism, blocking the flow of foreign terrorist fighters, 
preventing human trafficking, and other transnational crimes.
    Second, to create jobs at home and to secure our standing 
in the region, we stepped up economic engagement, concluding 
the U.S.-Korea Free Trade Agreement, revitalizing APEC, 
pursuing a new bilateral investment treaty with China, and most 
important, negotiating the Trans-Pacific Partnership, which is 
a new kind of economic agreement that sets high standards for 
protecting workers and the environment while at the same time 
supporting job-creating small businesses and an open internet.
    Third, we have helped build up the region's institutions 
and support rule of law and peaceful dispute resolution. Our 
investments in ASEAN and the region-wide East Asia Summit have 
renewed confidence in American leadership and strengthened the 
region's ability to deal with tensions like those in the South 
China Sea.
    Fourth, we have engaged intensely with China, investing the 
time to get to know its leaders, to advance cooperation, and to 
put a floor under the relationship so that it can withstand 
tensions. While serious concerns in areas like human rights and 
China's behavior with regard to maritime disputes with its 
neighbors remain, we have worked toward cooperative engagement 
on areas like cybersecurity, on shared proliferation concerns 
with Iran and North Korea, global health, climate change, and 
others.
    Fifth, we have upgraded relations with emerging partners 
like Indonesia, Malaysia, Vietnam. We have importantly 
supported the democratic transition in Burma and promoted 
democracy, good governance, and universal values and human 
rights as an essential element of our policy.
    The support and the funding provided by Congress has of 
course been essential, and the $1.57 billion East Asia-Pacific 
request for 2017 builds on these accomplishments, including by 
addressing maritime security concerns and promoting economic 
opportunities.
    The $873 million in foreign assistance request supports and 
expands on our objectives of regional security cooperation, 
advancing economic growth and trade, promoting democratic 
development, strengthening regional institutions, as well as 
addressing war legacies. The other $646 million provides 
essential increased funding for personnel, operations, and 
public diplomacy to meet growing demands driven by the 
rebalance.
    Now, contested maritime claims in Southeast Asia and 
destabilizing actions such as Chinese land reclamation, 
construction, and militarization of disputed areas make it 
harder for countries in the region to resolve disagreements 
peacefully. And the lack of maritime domain awareness also 
encourages trafficking, piracy, and illegal fishing.
    So the President's 2017 budget request will support our 
work with regional partners to build their capacity to maintain 
free and open access to the maritime domain through enhanced 
maritime security capabilities and maritime domain awareness.
    Thank you very much, and I look forward to answering any 
questions.
    [The prepared statement of Mr. Russel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                              ----------                              

    Mr.  Salmon. Thank you, Mr. Russel.
    Mr. Stivers?

    STATEMENT OF THE HONORABLE JONATHAN STIVERS, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr.  Stivers. Chairman Salmon, Ranking Member Sherman, 
distinguished members of the subcommittee, thank you for the 
invitation to testify today on the role of USAID in advancing 
U.S. foreign policy priorities in East Asia and the Pacific.
    President Obama's budget request for the East Asia-Pacific 
region is $873 million. That is a 12 percent increase over 
Fiscal Year 2015. This request is in recognition that America's 
security and prosperity are inextricably tied to the region, 
and it enables us to consolidate our gains and strengthen the 
Asia-Pacific Rebalance policy.
    In the coming years, the countries of this region are 
expected to continue high growth rates and play an increasingly 
pivotal role in world affairs. But just how this region's 
development and economic growth take shape is critical to our 
own future.
    Already home to a majority of humanity, by 2030 Asia is 
projected to add more people than any other region, putting 
unprecedented pressure to provide access for energy, clean 
water, food, quality education, and health care.
    But despite the impressive gains of the region, they 
continue to grapple with evermore complex development 
challenges, including severe economic disparities, food 
scarcity, urbanization, poor governance, and suffocating 
pollution and environmental degradation. Human trafficking 
continues to be an enormous problem, and an unacceptable 
proportion of women in the region continue to experience 
gender-based violence.
    At USAID, our mission is to end extreme poverty and promote 
resilient, democratic societies while advancing our security 
and prosperity. At its core, the Asia-Pacific Rebalance is 
about strengthening our relationships not only with countries, 
but more specifically, with the people of the region in an 
effort to improve their lives.
    We employ three primary approaches. First, we are 
pioneering a new model of development that focuses on 
maximizing our impact and our funding through public-private 
partnerships, science, innovation, and regional solutions.
    Second, we are building pathways out of poverty through 
Global Health, Feed the Future, and Global Climate Change.
    And last, we are empowering reformers to improve democratic 
governance and human rights. And for this reason, this budget 
request includes significant increases in democratic governance 
and human rights in almost every country in the region.
    Next, a brief overview of the key countries: In Burma, the 
November elections resulted in the first civilian-led 
government in more than 50 years. USAID was proud to be the 
lead donor, providing $18 million in support of the election, 
including: Incorporating international standards in the 
election procedures, training poll workers, political parties, 
election observers; and voter education and supporting more 
than 300 civil society organizations. We helped digitize 33 
million names from scratch into the voter list in a country 
with few computers and hundreds of dialects.
    We know that democracy is about more than just elections 
though, which is why our support for this next phase of the 
democratic transition is so important. The people of Burma have 
high expectations and low capacity to deal with the challenges 
on almost every front. The government has prioritized issues 
such as national reconciliation, reform of the political power 
structures, economic growth, agricultural development, and 
health care. USAID will continue our strong support for the 
people of Burma on each of these priorities through our budget 
request.
    We remain deeply concerned about the humanitarian and human 
rights situation in Rakhine State, and USAID continues to 
support vulnerable populations throughout the country, 
including the Rohingya.
    In Cambodia, our primary goal is supporting and 
transitioning to a democracy that respects human rights. Civil 
society, while not fully respected there, has grown in vibrancy 
and strength in recent years thanks in part to our assistance. 
On food security, our Feed the Future initiative has helped 
increased yields and drive down malnutritional stunting in 
children under 5 by 21 percent in the areas where we work.
    Indonesia's continued progress and democratic system set an 
example for its neighbors, but the country faces major 
governance, economic, and security challenges that could 
undermine its young democracy. Our anti-corruption investments 
have resulted in increased prosecution and the country's 
ranking on the Transparency International's Corruption Index 
has improved by 30 spots.
    On health, we have helped Indonesia become polio-free. And 
last year's devastating forest and peat fires cost the country 
over $16 billion. We partnered with the U.S. Forest Service to 
send forest specialists, but we know that prevention is the key 
to solving this challenge.
    USAID is supporting something called the Indonesia Palm Oil 
Pledge, which is an innovative commitment by the world's 
leading palm oil producers to transition to sustainable 
production.
    In the Philippines, our Partnership for Growth initiative 
has helped address the main impediments to inclusive and 
sustainable growth. The results have been striking. Philippines 
has emerged as one of the fastest-growing economies and a more 
reliable trade and investment partner. And for the first time, 
the country received investment-grade sovereign debt ratings 
from three of the world's leading credit agencies. Yet, lack of 
formal access to land is a key driver of poverty, a driver of 
conflict, and an obstacle to national development.
    In Vietnam, USAID supports the implementation of reforms 
critical to potential TPP participation, including launching a 
new labor program this year that will support the rights of 
workers and improve working conditions. In addition, USAID is 
focused on addressing war legacies, health and disabilities, 
and reducing susceptibility to climate change and natural 
disasters.
    Mr. Chairman, committee, in an interconnected world, 
development plays an indispensable role alongside defense and 
diplomacy in advancing our security and prosperity. While we 
must focus on immediate crises throughout the world, it is also 
essential that we address the root causes of poverty, conflict, 
and instability, to help shape a better future for humanity. 
That is the heart of our work in the East Asia-Pacific region.
    Thank you, and I look forward to your counsel and 
questions.
    [The prepared statement of Mr. Stivers follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
                              ----------                              

    Mr.  Salmon. Thank you very much.
    Just to give you a heads-up, we could get be getting buzzed 
for a vote any time now, any time between 25 past until 20 
till, so we are going to be up here on pins and needles.
    Mr. Russel, I completely support 100 percent the 
administration's stated goal of a rebalanced Asia. In fact, 
when I look at the priorities that you have outlined in your 
speech, I didn't really find anything that gave me pause. I 
support everything that you said 100 percent.
    And, Mr. Stivers, the same goes for you. And as I have gone 
throughout the region and I have met with your personnel, both 
of you, I am so impressed and so amazed at how much they 
accomplish with the resources that they have. And I guess that 
leads to my question.
    I mentioned that in my opening statement that while we have 
identified Asia as one of the most important priorities on the 
globe for this administration and for us as a country, it still 
remains pretty low as far as the resources, out of the six 
regions, second from the bottom. What is it going to take for 
us to be able to get the resources completely necessary? I know 
some of the Embassies that I have gone to seem like they have 
just about everything they need, but some of those Embassies 
that I have been to, they need more than they have got. They 
don't have all the resources that they need.
    And again, I want to state for the record that your folks 
are some of the most amazing people I have ever met in my life, 
incredible leaders. And the ranking member mentioned kind of a 
nexus if you will between DOD and what you do with State 
Department and USAID. I believe that what you all do is keeping 
us out of war. And it is probably for less than 1 percent of 
the total budget, the job that you do is incredibly worth what 
we commit to it.
    But are we giving the resources necessary for this region? 
And if not, how do we get there, Mr. Russel?
    Mr.  Russel. Well, Mr. Chairman, first of all, thank you 
very much for your heartfelt and kind words. And in particular, 
thank you for your personal travel to the East Asia and Pacific 
region. That really makes a big difference not only to your 
understanding and Congress' understanding of the issues but to 
our folks. So we thank you for that.
    Thank you also for your comments about the men and women 
who staff our Embassies in the East Asia and Pacific region. We 
are in the people business, and as a bureau, we have made it a 
point of pride to seek out and attract and to develop the best 
people in the Foreign Service community.
    We have throughout the lifespan of this administration 
consistently sought to fund the rebalance. We have sought and 
prioritized funding. And our foreign assistance budget, as Mr. 
Stivers mentioned, is up about 12 percent. Our overall budget 
compared to Fiscal Year 2015 is up about 11 percent.
    We have also deepened our collaboration and coordination 
with partners, industrialized nations in the region, in 
particular such as Japan, the Republic of Korea, Australia, and 
outside the region like the EU in order to try to leverage our 
collaborative efforts to promote our agenda.
    It is quite true that other regions may have more trouble, 
more crises, and more countries, and that accounts for some of 
the disparity between the regions. But like you, I argue that 
we have by far and away the best people.
    Mr.  Salmon. Mr. Stivers?
    Mr.  Stivers. Thank you. Thank you.
    This Fiscal Year 2017 request, if adopted, we think would 
better accomplish a lot of our goals. We think it is 
appropriate considering the crises all over the world and the 
budget environment that we are in. But we are doing our part to 
become more efficient, to leverage the private sector more, to 
work with our allies who have similar interests--Australia, 
Japan, the Asian Development Bank.
    And just a word on our people in the field, our AID 
missions, I mean, they are working in some of the poorest 
villages, helping sick families with our partners, hungry 
children, education. They are going into these villages with 
their ``From the American People'' USAID hat to really 
represent the best in American values and deeds. And that 
engagement with the people, despite, you know, disagreements we 
may have with governments, is really important in terms of 
strengthening what we believe in as Americans.
    Mr.  Salmon. Mr. Sherman----
    Mr.  Sherman. Thank you.
    Mr.  Salmon [continuing]. I yield to you.
    Mr.  Sherman. I can't possible match the chairman's level 
of niceness. I will comment, however, that I have and will 
continue to vote for the higher levels of tax revenue that will 
be necessary if we are actually going to be spending the money 
that you have recommended to us and that you would recommend to 
us if the resources were available.
    I see that we are providing significant aid to Myanmar/
Burma. How much of that is going to help the Rohingya and other 
ethnic minorities?
    Mr.  Stivers. Thank you, Mr. Sherman, for that question and 
for your attention to the plight of the Rohingya in the region.
    It certainly is a human rights and humanitarian crisis 
there. Last year, we provided $85 million in food aid, 
lifesaving humanitarian assistance to vulnerable populations 
within the country of Burma, of which Rakhine State and the 
Rohingya received a significant amount of that.
    In addition, we support civil society and voices of 
tolerance in terms of trying to get at some of the root causes 
of the disagreements and the conflict between the different 
groups.
    Mr.  Sherman. I note that our aid to Vietnam will include 
almost $22 million to help them participate in the TPP. What 
will that money be spent on?
    Mr.  Stivers. Thank you for that. Certainly, you know, the 
rule of law, human rights, and labor are all issues that hold 
us back from a more robust partnership there. And whatever your 
position is on the----
    Mr.  Sherman. But if they don't get the money, are they 
going to be in compliance?
    Mr.  Stivers. Well, whatever your position is on the TPP--
--
    Mr.  Sherman. Right.
    Mr.  Stivers [continuing]. We believe that getting Vietnam 
or any country to achieve high standards on trade to better 
promote U.S. exports, on the environment, labor, state-owned 
enterprises, IPR, anything we do to increase the standards----
    Mr.  Sherman. Will this money----
    Mr.  Stivers [continuing]. Would be better.
    Mr.  Sherman [continuing]. Be spent to help their exporters 
comply with standards to export to the United States or will it 
be spent to help our exporters import to Vietnam? How would you 
spend----
    Mr.  Stivers. This is----
    Mr.  Sherman [continuing]. $21.75 million to help us export 
to Vietnam?
    Mr.  Stivers. This is technical assistance, rule of law 
assistance that we provide to help show them how to better 
comply with these agreements. And certainly, you know, there 
are many aspects of TPP, of which market access and export 
promotion is one of them.
    Mr.  Sherman. I will just point out to go to my district 
and say you are going to have to compete on a level playing 
field with 60-cent-an-hour labor, with places where if people 
organize unions, the party just plants drugs on them and 
arrests them, claims they are drug dealers, and that we have to 
spend $22 million in order to help them sell us stuff for 60 
cents?
    Mr.  Stivers. We hope to improve the conditions there.
    Mr.  Sherman. It will help--yes. And we will be dealing 
with the budget before we deal with TPP, so if we are not 
members of TPP, would this money still be spent or would you 
reprogram it?
    Mr.  Stivers. This assistance is important regardless of 
TPP. Again, it is high trade standards that we want the country 
to adhere to. So regardless if TPP moves forward or not, I 
think it is important that Vietnam has as high of standards as 
possible, and that is what we are helping them do.
    Mr.  Sherman. State and DRL have declined to pursue 
distributing physical media such as hard drives and CDs to 
North Korea because of the risk to our partners. What can we do 
to get information and make it accessible to the people of 
North Korean, Mr. Russel?
    Mr.  Russel. Well, Congressman, we are working to try to 
improve access to international information to the North Korean 
people. It is quite true that possession of CDs or thumb drives 
is a punishable offense in the DPRK, and we are concerned about 
not putting either third parties or the North Korean people 
themselves in immediate physical risk.
    Nevertheless, the North Korean people are benefiting from a 
range of programs, including Radio Free Asia and the work that 
we are doing together with the Republic of Korea.
    Mr.  Sherman. I point out that all over the world we help 
people who want to risk their lives to make their countries 
better. Congress has said, for example, that we are going to 
provide weapons to the right Syrian forces, and so we don't 
fail to provide those weapons on the theory that whoever uses 
them will expose themselves to danger.
    It seems like you are saying we won't provide the thumb 
drives in northern China to patriotic North Koreans who are 
willing to risk their lives and bring them into North Korea. Is 
there a reason why we are unwilling to help these patriotic 
North Koreans?
    Mr.  Russel. We work to provide access to information for 
the North Korean people directly and with our partners in the 
ROK.
    Mr.  Sherman. I hope we do thumb drives as well. Thanks.
    Mr.  Salmon. Short question from Mr. Brooks.
    Mr.  Brooks. I hope it will be short.
    I am looking at what committee staff has given me, and tell 
me if I have got it correct, that this hearing does not include 
anything in the Near East but rather it is limited to East Asia 
and the Pacific?
    Mr.  Stivers. That is right.
    Mr.  Russel. That is correct.
    Mr.  Brooks. That is correct. And according to committee 
staff notes, the Fiscal Year 2017 budget request increases 
funding for East Asia and the Pacific 11.9 percent. Is that 
accurate?
    Mr.  Russel. Foreign assistance budget, that is correct, 
sir.
    Mr.  Brooks. And you are familiar with the financial 
condition of Puerto Rico right now and how that is a major 
issue on Capitol Hill?
    Mr.  Russel. I am aware of it through----
    Mr.  Brooks. Of the existence of it. And you need to turn 
on your microphone. I am not sure if it is hitting the record 
very well.
    Well, Puerto Rico, by way of example, has a debt that is 
unpaid, at risk of default that averages out to $20,000 per 
Puerto Rico resident, $20,000 apiece. In contract, America's 
per-capita debt approximates $60,000, again, $60,000 per person 
for the United States. We are looking at what is happening in 
Puerto Rico when it is $20,000.
    And my question is with this kind of increase that you want 
to spend in faraway lands where America seems to be on a path 
to insolvency and bankruptcy without the will in Congress or in 
the White House to be financially responsible and properly 
manage our resources, what can you tell the constituents of my 
district, Alabama's 5th Congressional District, that would help 
convince them that this is a worthwhile expenditure given the 
rather precarious financial condition that their country is in 
and the increasing risk that America is going to suffer from a 
debilitating insolvency and bankruptcy?
    Mr.  Russel. Congressman, my answer would be that the East 
Asia and Pacific region is a larger export market for U.S. 
exports than Europe is, than Canada or Mexico is. And the----
    Mr.  Brooks. Are you suggesting we have to pay them money 
to get them to buy our products?
    Mr.  Russel. Our strategy is to invest in U.S. national 
interests. And the U.S. has a national interest in tethering 
itself to the most dynamic economic growth region on planet 
Earth, East Asia and the Pacific. We derive phenomenal benefits 
not only in economic and commercial terms but also in security 
and other aspects from our sustained investment in the Asia-
Pacific region.
    Mr.  Brooks. So, as I understand it, your whole argument is 
based on potential trade arrangements----
    Mr.  Russel. No, I----
    Mr.  Brooks [continuing]. With these nations?
    Mr.  Russel. No, Congressman. I think that there is a 
compelling case for why the U.S. national interests, both 
economic and security, rests in intensified engagement with the 
Asia-Pacific region. This is a part of the world that is 
demographically growing at an extraordinary rate, that is a 
major consumer of American products, that is receptive and 
attracted to the American brand that is moving steadily in the 
direction of universal values that America has championed----
    Mr.  Brooks. Right, Mr. Russel, I appreciate your insight. 
I apologize for having to cut you off. But I can sense some 
antsy Congressmen because we have had votes called and we are 
nearing the point where we will miss the points and we have got 
to go over to the United States Capitol and the House Floor in 
order to cast those votes. If you want to add anything when we 
resume, that will be great. Unfortunately, I won't be here 
because I have other hearings. I have got Strat Forces 
Subcommittee and other things that are coming up that I will 
have to attend to after votes. But thank you for your insight.
    Mr.  Salmon. And we will reconvene after the vote on the 
Floor.
    Mr.  Connolly. Mr. Chairman, I promise I am just going to 
take a minute----
    Mr.  Salmon. Fire away.
    Mr.  Connolly [continuing]. Because I can't come back.
    Mr.  Salmon. Okay.
    Mr.  Connolly. I thank the chair.
    I just want to say to my friend from Alabama with whom I 
recently traveled to China, I can tell you that my constituents 
would answer his question. We need to be engaged. This is a 
very important part of the world where we cannot afford to 
retreat and withdraw. And it is always a false choice to say to 
us we can either afford domestic investment or foreign aid but 
not both. I mean, it sounds good, but we are talking about less 
than 1 percent of the United States budget, and it is a tool 
that helps us avoid military engagement and that can have long-
term return on it. So it is an investment worth making if the 
United States is going to live up to its responsibilities as an 
engaged world power.
    I thank the chair.
    Mr.  Brooks. Amen.
    Mr.  Salmon. And you do have bipartisan agreement here on 
that.
    Mr.  Brooks. Absolutely.
    Mr.  Salmon. Thank you. We will reconvene after the vote. 
Thank you.
    [Recess.]
    Mr.  Salmon. We will reconvene this hearing.
    Mr. Russel and Mr. Stivers, I wanted to give you a chance 
to maybe respond to the last question, resources for the State 
Department in general, why is it important? And you got a 
little bit of a chance to answer that.
    The other thing I really wanted to focus on, the ranking 
member spoke about these rocks and uninhabited islands that are 
totally unimportant and maybe you could tell us why they are 
important. I will give you a chance on both of those.
    Mr.  Russel. Well, thank you very much, Mr. Chairman. The 
U.S. is a Pacific nation, and our future is inextricably 
intertwined with the growth of the Pacific region. The good 
news is that, both for demographic and for economic reasons, 
the trend lines are by and large good in Asia. Poverty has 
diminished dramatically, GDP, economic growth, internet 
penetration, education, women's rights, human rights, civil 
rights. There are some very, very positive trends and 
developments, much of which can be attributed, I believe, to 
the leadership exercised by the United States in championing 
universal rights but also in providing a security climate that 
allows for that economic growth.
    And the stability and the security of the Pacific region is 
a vital U.S. national interest. It is not a luxury item. And we 
would, as you pointed out, ignore it at our peril because this 
is the ounce of prevention that spares us the many pounds of 
cure that would be required to try to influence events if we 
weren't present in a credible and influential way.
    The economic and the security pieces go hand in hand with 
what our companies do. I have discovered from traveling in the 
region again and again that the American brand is very much a 
function of the way that our companies operate with respect to 
rules and investment and growing people and in fairness. We are 
giving people in the Asia-Pacific region hope, we are giving 
them opportunity, and they are repaying us with good governance 
and open markets. It is a bargain.
    Mr.  Salmon. Just to interject, and I get to see that 
firsthand. You know, what is interesting is we wring our hands 
every year over this discretionary budget. I just might point 
out that we could zero out all discretionary spending, all your 
funding for State Department, USAID, national parks, 
transportation, military. We could zero it all out and we would 
still have a heck of a deficit going, and that is because this 
place never really talks about the one place where if we made 
some changes actually would probably get us closer to a 
balanced budget, and that is dealing with our nondiscretionary 
accounts or our mandatory spending. And those areas eclipse 
everything.
    And in a few years if Congress--I am leaving, but if 
Congress continues to put its head in the sand on dealing with 
entitlement spending and not doing anything about it, there 
won't be any money for discretionary spending. So this is money 
well, well, well spent, and I am anything but a big spender. 
And anybody who knows me knows that. But this is money that is 
incredibly well spent, and that is why I hounded you a little 
bit about even, you know, focusing more resources on the region 
because it is so critical to our livelihood, to our domestic 
policy as far as jobs and to our national and international 
security.
    Mr. Stivers?
    Mr.  Stivers. Thank you for the chance to answer that 
question.
    Well, we live in an interconnected world right now, and it 
is getting smaller and smaller. And East Asia is not a faraway 
land. It is right here in terms of our security and stability. 
We know infectious disease knows no borders. If we don't try to 
work on these issues--that is where the avian flu came from in 
terms of Southeast Asia--it is essential that we are engaged on 
these issues.
    We know some of the drivers of violent extremism, denial of 
civil liberties, harsh authoritarian rule, corruption, 
impunity, if we don't help these countries and these reformers 
in these countries try to address those issues, those are 
really the root causes of some of the problems that we are 
seeing globally and also that affect us here in the United 
States.
    And certainly our values of democracy and human rights are 
absolutely essential to our work in our foreign assistance. We 
don't believe that less than 1 percent of our U.S. budget going 
to development and working with our allies is too much to 
provide.
    Mr.  Salmon. Let me just ask a follow-up question. Nothing, 
you know, is static. Nothing stays the same forever. And, you 
know, if our leadership from the region evaporates, what could 
potentially happen?
    Mr.  Russel. Mr. Chairman, there is a tremendous hunger in 
the Asia-Pacific region for sustained and continued U.S. 
presence and U.S. leadership because the stability and the 
predictability that we have provided over the last 6 plus 
decades has enabled citizens in the region to build the kind of 
life that citizens everywhere seek.
    I think that with respect to the question that the ranking 
member asked about the South China Sea, the answer lies in one 
word: Rules. It is not about the rocks; it is about the rules. 
And we profit when we live in a rules-based world. We suffer 
and I would add we will spend a hundredfold in seeking to claw 
back the space in which we can exercise our rights if we let it 
slip through our fingers, if we don't continue that investment.
    Building a rules-based system in the Asia-Pacific region 
benefits the United States in a very direct way, and whether it 
is with respect to security and the peaceful resolution of 
maritime disputes, ensuring that the rules apply equally to big 
countries and to small, or whether it is with respect to trade, 
TPP, of course we believe, should be ratified by the U.S. 
Congress not only because of the issue of U.S. credibility but 
because it is such an important strategic opportunity. Forty 
percent of global GDP is represented by the 12 partner 
countries. We are looking at the majority of the world's 
middle-class consumers living and working in the Asia-Pacific 
region in just a matter of a few years.
    Whether or not we operate in a transparent, high standard, 
rules-based environment in the Asia-Pacific is going to be a 
determinant of whether the American people benefit and whether 
the American economy flourishes or not.
    Mr.  Salmon. I just want to have one last question.
    I know I mentioned that a couple weeks ago I attended an 
international summit held by the McLean Institute, and many of 
the speakers expressed grave concerns about the fact that on 
these islands that have really no value, as was mentioned or at 
least by the ranking member, if they have no value, then why is 
China building runways on them? Why is China putting radar on 
them? Why is China putting weapons on them? It is a reason. It 
is causing our allies in the region great, great, great 
concern.
    I think it is about rule of law, but I think it is also 
about boundaries that have to be clear for any civilization. 
And I guess it does get back to rules, rules that have been in 
place for a long, long, long time. And if we as the one free 
beacon of liberty and hope can't stand to protect and secure 
rule of law, then I don't know what we are here for.
    Last week, Defense Secretary Ash Carter visited an American 
aircraft carrier while it was sailing in the South China Sea, 
the second time he has made such a visit. And it highlighted 
once again this tension. And there are U.S. national security 
concerns. How does this year's budget request complement and 
operationalize the response to these tensions within State and/
or USAID, and how does State and USAID's efforts complement 
DOD's response in our FON ops?
    Mr.  Russel. Well, Mr. Chairman, we have an FMF request on 
the order of $86.6 million that provides funding for a variety 
of maritime security intitiatives and improvements among our 
partners and our allies. Much of this is oriented at capacity-
building and maritime domain awareness.
    The coastal countries in the South China Sea want and need 
to have the ability to monitor what is transpiring in their 
environs and their territorial waters and in their EEZs. And 
frankly, seeing what is going on is helpful in avoiding crises 
and avoiding incidents and accidents.
    We are supporting their efforts also with an eye toward 
their ability to respond to disasters and humanitarian 
assistance, given the number of climatic incidents and typhoons 
and so on.
    The goal, as you alluded to, Mr. Chairman, is not to create 
an advantage of one claimant over another. We have no interest 
in that, and that is not what we are about. What we are seeking 
to do is to ensure that the countries adhere peacefully to the 
rule of law and, importantly, take no actions to abridge 
universal rights and international legal principles like 
freedom of navigation, freedom of overflight, unimpeded lawful 
commerce. That is a U.S. interest. It is a universal interest 
and a universal right that mustn't be abridged. That was the 
rationale behind the visits by Secretary Carter.
    The FMF programs that we are putting forward in our request 
directly complement the Department of Defense's Maritime 
Security Initiative. We consult and cooperate closely and 
anticipate that we will be able to ensure that the two programs 
dovetail as we move forward.
    Mr.  Salmon. For whatever it is worth and then I will close 
my questioning and yield to the ranking member, but for 
whatever it is worth, I think that there needs to really be, I 
think, a stepped-up effort on behalf of all of us to reach out 
to the ASEAN folks to be more of a voice of clarity on these 
issues in the region. And I think that the more we speak in 
unison with some of the international bodies associated with 
this issue, I think the more that we will find success because 
I truly do think China is kind of testing its boundaries. And I 
really believe that. The more clarity we provide, the more we 
are able to avoid any kind of a conflict. Do you want to 
comment on that?
    Mr.  Russel. Well, the U.S. engages directly with the 10 
members of ASEAN. Of course, we also engage with China and 
other neighbors in the region through a series of platforms, 
the preeminent one being the East Asia Forum. President Obama 
has made it a point throughout his Presidency to attend on an 
annual basis, and he importantly hosted the 10 leaders of ASEAN 
in February in an informal summit in California, which allowed 
for a day-and-a-half of in-depth conversation on a range of 
economic and security issues.
    One thing that came through loud and clear is the shared 
conviction among all the leaders that the economic imperative 
to promote and sustain stability in the Asia-Pacific region is 
a common responsibility. We discussed things that each country, 
both claimant countries and non-claimant countries can do. We 
also discussed the importance of direct engagement and dialogue 
with China.
    President Obama met with President Xi Jinping on March 31 
here in Washington on the margins of the Nuclear Security 
Summit, and had a very, very direct discussion of our concerns 
and our interests with respect to the South China Sea.
    We still have a long way to go. The pattern of behavior by 
Chinese forces and actors remains troubling. But I believe that 
we have a real dialogue with the Chinese, and that they have 
heard us loud and clear.
    Mr.  Salmon. Thank you.
    Mr. Sherman.
    Mr.  Sherman. Thank you.
    Mr. Stivers, I see we are reducing our aid to Mongolia. Any 
particular reason?
    Mr.  Stivers. Well, thank you for that. Mongolia is a 
middle-income country, and they also had an MCC compact, which 
was $285 million over 5 years to address constraints of growth 
that I believe it is coming to a conclusion. We have a small 
democracy and governance youth program there. We believe that 
is an appropriate footprint considering our other challenges in 
the region.
    Mr.  Sherman. The chairman of our full committee had field 
hearings in Los Angeles, as you remember, to focus on the rule 
of law in the Philippines and particularly the seizures of land 
by politically connected individuals. Mr. Russel, have you 
followed up on that and can you report to us that the abuses we 
learned about in that hearing have been at least partially 
addressed by the Philippine Government?
    Mr.  Russel. Well, we continue to engage on an ongoing 
basis with the national and the local authorities in the 
Philippines on a range of good governance programs. And I am 
sure Mr. Stivers can build them out. We think that the 
Philippines has made progress under the leadership of President 
Aquino in strengthening the rule of law throughout the 
Philippines, but we still see a considerable amount of work yet 
to be done.
    Mr.  Sherman. I hope you deal with the chairman's staff on 
that and see if we can be specific because there were specific 
items brought to our attention of that filtering.
    Mr. Stivers?
    Mr.  Stivers. Thank you. Thank you for the chance to--
certainly, Chairman Royce has just been a champion on this 
issue, but land rights is one of the top priorities if not the 
top priority of people in the Philippines, Cambodia, Burma, 
Indonesia. It rises to the top of any poll in terms of 
concerns, and so we are addressing that issue in most of these 
countries.
    In terms of the Philippines, in August we launched 
something we called the SURGE program, which does exactly some 
of the things you talked about. It works with the local 
governments in terms of helping them better organize the way 
they handle land titles from a programmatic view.
    Mr.  Sherman. Yes. Even if you have got land title, if 
armed thugs with political support can deprive you of the use 
of your land, force you to sell, there is a problem. But I am 
going to move on to another issue.
    Mr. Russel, our trade deficit with Japan is enormous. It is 
often not talked about because it is smaller than the trade 
deficit we have with China. Part of the reason for that deficit 
is explicit, direct, open currency manipulation by the 
Japanese. Are we doing anything, and do you predict that next 
year the trade deficit will be lower than this year? So are we 
doing anything, and is it going to be successful in reducing 
the deficit?
    Mr.  Russel. Well, with all due respect, Congressman 
Sherman, I will leave the issue of currency to the Department 
of the Treasury and I will stay out of the predictive business. 
But----
    Mr.  Sherman. But you are willing to advocate for the role 
of the U.S. trade representative but you won't go on the--okay. 
Please proceed.
    Mr.  Russel. The Japanese Government has----
    Mr.  Sherman. But wait a minute. I do want--how can you 
possibly advocate for a trade deal on the one hand and have no 
opinion on currency manipulation on the other? I mean, I could 
see you saying you are not going to talk about trade and you 
are not going to talk about currency, but you are talking about 
currency and you are not talking about currency.
    Mr.  Russel. Well, what I will talk about is America's 
national interest, and we have a national----
    Mr.  Sherman. But your----
    Mr.  Russel [continuing]. Interest----
    Mr.  Sherman [continuing]. Testimony has been that this is 
a good trade deal for working American families, and yet you 
have no opinion on--I want to go on to just one last thing as 
my time expires, and that is we will sanctimoniously and with 
great hubris tell everybody in Asia that we are going to teach 
them about democracy, and yet you know and I know that the plan 
of the administration is to sneak this trade deal through the 
United States Congress during a lame-duck session. And I would 
hope that you would respond just for the record as to how it is 
going to undercut our ability to be an example of democracy if 
we use chicanery to pass the one thing through our democracy 
that Asian countries are looking at. They will watch us as we 
sneak it through in the dead of night and then next year, the 
State Department will be lecturing them about democracy. So I 
would hope you would respond for the record on that because I 
see my time is expired.
    Mr.  Russel. I categorically reject the assumptions that 
underlie your question, Congressman.
    Mr.  Sherman. Well, if the assumptions are wrong, can you 
promise me that the administration will not use the lame-duck 
session to try to pass a trade deal that they can't pass 
through a democratic body in any other way?
    Mr.  Russel. What we have done and the effort that I have 
been a part of is to create a transparent and high-standard 
agreement that opens the door for U.S. businesses to----
    Mr.  Sherman. Mr. Russell, if I can interrupt----
    Mr.  Russel [continuing]. Trade----
    Mr.  Sherman [continuing]. And reclaim my time----
    Mr.  Russel [continuing]. With lower tariffs----
    Mr.  Sherman. Mr. Russel, you love this agreement so much 
that you are part of an administration that will use chicanery 
to pass it, and then you tell us that is okay because it is a 
really loveable agreement. That is no way to show democracy to 
the world. It is not----
    Mr.  Russel. Congressman, I have a very----
    Mr.  Sherman [continuing]. Like you can use underhanded 
chicanery to thwart democracy but only for a really, really 
good purpose.
    Mr.  Russel. Congressman, I have a very robust toolkit of 
diplomatic resources, but underhanded chicanery does not----
    Mr.  Sherman. If we use----
    Mr.  Russel [continuing]. Number among them.
    Mr.  Sherman [continuing]. Underhanded chicanery to pass 
this trade deal, which is the one most visible thing America 
will do in affecting the Pacific region, they will watch what 
we do, they will watch how we do it. And if we use chicanery to 
pass it and then tell them that democracy should be skirted 
around if you have a really good reason, then I do not think we 
will be effective advocates for democracy in Asia.
    Mr.  Russel. Congressman, I am proud of America's record as 
an advocate for democracy, and I am proud of the TPP agreement 
that this administration has negotiated.
    Mr.  Sherman. I hope we can be proud of the process through 
which it is submitted to Congress.
    And I yield back.
    Mr.  Salmon. Well, I don't think that the administration is 
going to be given charge of the congressional schedule. I don't 
think Mitch McConnell or Paul Ryan will give that up.
    Mr.  Sherman. Mr. Chairman, under the Trade Promotion 
Authority Act, it is the President who determines the entire 
schedule. He submits it, and then we have to vote on it within 
90 days. I believe it is 90; it could be 60. So we have, 
through legislation, which I opposed, given the executive 
branch control of our schedule when it comes to voting on this 
agreement, and I fear--and I have given the administration a 
chance to douse those fears--that chicanery will be used in the 
timing of the voting on this deal.
    Mr.  Salmon. All right. Well, thank you very much for 
coming to this hearing. We really appreciate it, appreciate all 
your hard work and the good things that you are doing in the 
region. Thank you very much.
    And this committee is now adjourned.
    [Whereupon, at 2:37 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
